Certificate of Seivice
8/92020
Herewith are 40 of the paperbooks
No.
In the

$uprtme Tourt of tip nitebr *ales
ALVIN E. MEDINA, PETITIONER
v.
FEDERAL AVIATION ADMINISTRATION
PETITION FOR WRIT OF CERTIORARI
I hereby certify that I am this day serving the foregoing
document (3) copies upon the person(s) and in the manner indicated
below. Service by first-class mail addressed as follows:
US Solicitor General
DOJ
Room 5614
950 Pennsylvania Ave NW
Washington, DC 20005
Resp

Submitted,

D CURRY
CURRY & TAYLOR LLC
1726 NEVADA AVE NE
ST. PETERSBURG, FL 33703
(202) 350-9073

RECEIVED
AUG 3 1 2020
OFFICE OF THE CLERK
SUPREME COURT U.S.

